            Office of Inspector General




December 29, 2006

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT:          Audit Report – Fiscal Year 2006 Postal Service Financial Statements
                  Audit – Eagan Information Technology and Accounting Service Center
                  (Report Number FT-AR-07-007)

This report presents the results of our audit of the financial activities and
accounting records at the Information Technology and Accounting Service Center
(IT/ASC) in Eagan, Minnesota for the fiscal year ended September 30, 2006 (Project
Number 06BM001FT000). The Postal Reorganization Act of 1970, as amended,
requires annual audits of the Postal Service’s financial statements. We conducted this
audit in support of the independent public accounting firm’s overall audit opinion on the
Postal Service’s financial statements.

Postal Service management’s financial accounting policies and procedures conformed
with accounting principles generally accepted in the U.S. and provided for an adequate
internal control structure. Additionally, accounting transactions that affect the general
ledger account balances at the Eagan IT/ASC were fairly stated in the national trial
balance in accordance with accounting principles generally accepted in the U.S. and
conformed with the general classification of accounts on a basis consistent with that of
the previous year. Also, we did not identify any instances of noncompliance with laws
and regulations that have a direct and material effect on the financial statements.

In addition, we identified an opportunity to improve Postal Service operations and
issued an interim report1 related to Disbursing Branch activities. This item was not
material to the financial statements and did not affect the overall adequacy of internal
controls. We communicated recommendations noted in this report to management
through an interim report. Accordingly, we did not propose any further
recommendations.




1
 Internal Controls Over Receipt and Disbursing Activities (Report Number FT-AR-07-006, dated December 21,
2006).
The results of the audit were discussed with management on November 29, 2006.
Because there were no recommendations provided, management chose not to respond
to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2100.

   E-Signed by John Cihota
ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: H. Glen Walker
    Vincent H. DeVito, Jr.
    Elizabeth L. Novillis
    Dean R. Rodman
    Steven R. Phelps
Fiscal Year 2006 Postal Service Financial Statements Audit –                                     FT-AR-07-007
 Eagan Information Technology and Accounting
 Service Center


                                          INTRODUCTION
Background                      The Eagan Information Technology and Accounting Service
                                Center (IT/ASC) is one of three accounting service centers
                                Postal Service-wide.2 It is a large centralized accounting
                                and disbursement center that processes payroll, maintains
                                the general ledger, reconciles financial data, and maintains
                                cash and receivable accounts. We conducted this audit in
                                support of the independent public accounting firm’s overall
                                audit opinion on the Postal Service’s financial statements.

                                We issued a separate financial statement audit report for
                                headquarters3 and will also be issuing separate reports for
                                the San Mateo and St. Louis IT/ASCs. Further, in addition
                                to the overall opinion on the Postal Service's financial
                                statements, the Board of Governors’ independent public
                                accounting firm contracted to express an opinion on the
                                financial statements will issue separate reports on the Postal
                                Service's internal controls and compliance with laws and
                                regulations. The OIG will also issue a separate report for
                                the audit of the fiscal year (FY) 2006 information system
                                controls at the Eagan, San Mateo, and St. Louis IT/ASCs.

Objectives, Scope,              The objectives of the audit were to determine whether:
and Methodology
                                 • The financial accounting policies and procedures of the
                                   Eagan IT/ASC provided for an adequate internal control
                                   structure and were in compliance with accounting
                                   principles generally accepted in the U.S.

                                 • Accounting transactions at the Eagan IT/ASC affecting
                                   the general ledger account balances for assets, liabilities,
                                   equity, income, expenses, and commitments of the
                                   Postal Service were fairly stated in the national trial
                                   balance in accordance with accounting principles
                                   generally accepted in the U.S.

                                 • General ledger account balances conformed with the
                                   general classification of accounts of the Postal Service
                                   on a basis consistent with that of previous years.


2
 The other IT/ASCs are located in San Mateo, California, and St. Louis, Missouri.
3
 Fiscal Year 2006 Postal Service Financial Statements Audit – Washington, D.C., Headquarters (Report Number
FT-AR-07-004, dated December 7, 2006).




                                                       1
Fiscal Year 2006 Postal Service Financial Statements Audit –                        FT-AR-07-007
 Eagan Information Technology and Accounting
 Service Center



                                • The Postal Service was in compliance with laws and
                                  regulations that have a material and direct effect on the
                                  financial statements as a whole.

                               To accomplish our objectives, we conducted fieldwork from
                               November 2005 through November 2006. As part of our
                               audit, we assessed internal controls, tested transactions,
                               and verified account balances. We conducted this audit
                               from November 2005 through December 2006 in
                               accordance with generally accepted government auditing
                               standards and included such tests of internal controls as
                               were considered necessary under the circumstances. We
                               discussed our observations and conclusions with
                               management officials and included their comments where
                               appropriate.

                               We relied on computer-generated data from several Postal
                               Service financial systems, including the Accounting Data
                               Mart, General Ledger, Time and Attendance Collection
                               System (TACS), Pay Calculation, Complement Management
                               and Selection System, and Employee Master File. We
                               performed specific internal control and transaction tests on
                               these systems’ data to include tracing selected financial
                               information to supporting source records. For example, we
                               traced payroll system reports to original journal voucher
                               transactions.

Prior Audit Coverage           We have audited the financial activities and accounting
                               records at Eagan IT/ASC since FY 1998. We disclosed the
                               results of our most recent audit for FY 2005 in the audit
                               report Fiscal Year 2005 Postal Service Financial Statement
                               Audit – Eagan Information Technology and Accounting
                               Service Centers (Report Number FT-AR-06-009, dated
                               January 10, 2006). We address issues that remain
                               outstanding under Audit Results.




                                                     2
Fiscal Year 2006 Postal Service Financial Statements Audit –                       FT-AR-07-007
 Eagan Information Technology and Accounting
 Service Center


                                         AUDIT RESULTS
                               Management’s financial accounting policies and procedures
                               conformed with accounting principles generally accepted in
                               the U.S. and provided for an adequate internal control
                               structure. Additionally, accounting transactions at the
                               Eagan IT/ASC that affected the general ledger account
                               balances were fairly stated in the national trial balance in
                               accordance with accounting principles generally accepted in
                               the U.S. Further, general ledger account balances
                               conformed with the general classification of accounts on a
                               basis consistent with that of the previous year. Also, we did
                               not identify any instances of noncompliance with laws and
                               regulations that have a direct and material effect on the
                               financial statements.

                               Although we did not propose any adjusting journal entries to
                               the center’s trial balance as of September 30, 2006, we
                               identified an opportunity for the Eagan IT/ASC to improve its
                               Disbursing Branch activities. This item was not material to
                               the financial statements and did not affect the overall
                               adequacy of internal controls.

Interim Report on              We identified and reported the following two issues to
Disbursing Activities          Eagan IT/ASC management through an interim report
                               during our financial statements audit.

Examination of Forms           Disbursing Branch personnel processed payments totaling
for Proper Certification       $23,917,906 that were certified by an officer that did not
                               have a valid signature/designation card on file. During our
                               audit, the Finance Branch discovered the error and
                               completed a valid signature/designation card. When
                               certifying officials are not validated, the Postal Service
                               increases its risk of improper payments.

                               We recommended management instruct disbursing
                               personnel to compare certifying officials with
                               signature/designation cards and confirm changes to the
                               certifying officer list are proper. In addition, we
                               recommended they confirm changes to the certifying officer
                               list are proper before revoking signature/designation cards.

                               Management agreed with our recommendations and their
                               actions taken should correct the issues identified. Since we




                                                     3
Fiscal Year 2006 Postal Service Financial Statements Audit –                                        FT-AR-07-007
 Eagan Information Technology and Accounting
 Service Center

                                 communicated these recommendations to management
                                 through an interim report, we are not providing any further
                                 recommendations.

Depositing Cash into             Two employees deposited Postal Service funds in their own
Personal Accounts                personal accounts to convert cash to checks so they could
                                 deposit them with the Federal Reserve Bank of
                                 Minneapolis.4 During the course of our audit, management
                                 established an account at the financial institution located at
                                 the Eagan IT/ASC and discontinued the practice of
                                 depositing cash into employee accounts to convert to
                                 checks. Therefore, we provided no recommendation
                                 regarding mingling funds but will monitor this issue as
                                 necessary.

Progress on Prior                As part of our audit, we followed up on prior years’
Year                             recommendations related to our financial statement audits
Recommendations                  at the Eagan IT/ASC.5 The status of management’s actions
                                 in response to our recommendations is as follows:

Timekeeping Duties               Regarding Postal Service employees with access authority
                                 within TACS to enter or change their own work and leave
                                 hours, management removed employees’ access where
                                 feasible. In addition, management issued guidance
                                 detailing exceptions to the separation of duties requirement.
                                 We considered the actions to address these
                                 recommendations sufficient.

Reporting Salary                 The Postal Service did not always follow Internal Revenue
Overpayments to the              Service (IRS) employment tax regulations for reporting
Internal Revenue                 salary overpayments when employees did not repay the
Service                          entire amount by the end of the calendar year in which the
                                 Postal Service made the payment. To date, management
                                 has not implemented our recommendations to revise Postal
                                 Service policy to comply with IRS tax regulations, establish
                                 accounts receivable for gross amount due, and inform
                                 employees of tax implications. However, management is in
                                 the process of enhancing the payroll and accounts
                                 receivable systems so they have the capability to comply

4
  Treasury Financial Manual, Volume 1, Part 5-2000, Checks and Cash received in Collections, states that Federal
Reserve Bank deposits must not contain cash.
5
  Fiscal Year 2004 Postal Service Financial Statement Audit – Eagan Information Service Center (Report
Number FT-AR-05-005, dated January 10, 2005) and Fiscal Year 2005 Postal Service Financial Statement Audit –
Eagan Information Service Center (Report Number FT-AR-06-009, dated January 10, 2006).




                                                        4
Fiscal Year 2006 Postal Service Financial Statements Audit –                     FT-AR-07-007
 Eagan Information Technology and Accounting
 Service Center

                               with the recommendations. Target completion date for
                               system enhancements, including associated notifications, is
                               September 30, 2007. We will continue to monitor this area
                               as part of our annual financial statement audit work.

Management’s                   We discussed the results of the audit with Postal Service
Comments                       management on November 29, 2006. Because there were
                               no recommendations provided, management chose not to
                               respond to this report.

Evaluation of                  No action by management was required.
Management’s
Comments




                                                     5
